                                                              (j~    SECv
                                                                       ~
                                                          ~
                                                          \      IIIIIII ~~
                                                                JVISTp.J.

                                               SOOAL                SECURITY

                                               Office of the Inspector General
MEMORANDUM
Date:   May 16,      2001                                                                         Refer To: ICN   31126-23-156

  .Larr;y      G. Massanari
To.      Acting Commissioner

         of Social    Security

From:   Inspector General


Subject: Force   Processing      of Magnetic    Media   Wage         Reports    with Validation    Problems
        (A-03-99-31     001 )



        The attached final report presents the results of our audit. Our objective was to review
        the Social Security Administration's oversight of force processing of magnetic media
        wage reports with validation problems. In particular, we assessed the impact of new
        reporting thresholds established since Tax Year 1996 to improve the quality of wage
        reports.

        Please comment within 60 days from the date of this memorandum on corrective
        actions taken or planned on each recommendation. If you wish to discuss the final
        report, please call me or have your staff contact Steven L. Schaeffer, Assistant
        Inspector General for Audit, at (410) 965-9700.




                                                                               James Go Huse, Jr,



        Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION




       FORCE PROCESSING OF
   MAGNETIC MEDIA WAGE REPORTS
    WITH VALIDATION PROBLEMS

      May 2001   A-03-99-31001




 AUDIT REPORT

                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and

      investigations relating to agency programs and operations.

  o   Promote economy, effectiveness, and efficiency within the agency.

  0   Prevent and detect fraud, waste, and abuse in agency programs and

      operations.

  0   Review and make recommendations        regarding existing and proposed

      legislation and regulations relating to agency programs and operations.

  0   Keep the agency head and the Congress fully and currently informed of

      problems in agency programs and operations.


  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      Executive Summary
OBJECTIVE
The objective of our audit was to review the Social Security Administration's (SSA)
oversight of force processing of magnetic media wage reports with validation problems.

BACKGROUND
Title II of the Social Security Act requires SSA to maintain records of wages employers
pay to individuals. As such, employers report employee earnings to SSA annually on
Internal Revenue Service (IRS) Form W-2, Wage and Tax Statement. Employers with
250 or more employees submit annual wage reports on magnetic media (tape, diskette
or cartridge) instead of a paper document.

For Tax Years (TY) 1995 and prior, SSA accepted magnetic media if as few as
10 percent of the names and Social Security numbers (SSN) matched SSA’s records.
SSA increased the acceptance threshold to 30 percent for TY 1996 and to 50 percent
for TY 1997 (with a maximum of 5,000 errors allowed). SSA returns to the employer for
correction and resubmission any annual wage report that does not meet the threshold.
In addition, the instructions for the Form W-2 contain a penalty provision of $50 per
error for submitting inaccurate name/SSN combinations.

SSA’s instructions provide an exception for employers who do not meet the acceptance
threshold. To receive the exception, employers must notify SSA that they have
corrected errors to the extent possible but still cannot meet the threshold. SSA will then
force process the report, which suspends a system edit, and notifies the employer it will
do so one time only. SSA also has Employee Service Liaison Officers (ESLO) to
respond to questions from employers and third-party filers.

SSA decided to permit force processing as a temporary relief mechanism to help
employers adjust to the new wage reporting accuracy standards. Those W-2s that do
not match SSA’s records are accumulated in the Earnings Suspense File (ESF). Force
processing of wage reports results in unmatched W-2s going directly to the ESF.

RESULTS OF REVIEW
SSA’s intent in increasing its acceptance threshold to 50 percent was to alert employers
that SSA was going to require more accurate name/SSN data. SSA advises employers
that force processing is for 1 year only, and it will ask the IRS to assess penalties on
employers who continue to submit W-2s with incorrect names and SSNs. Despite these
warnings, SSA continues to force process wage reports for the same employers and
has not identified the employers so the IRS can impose penalties for reports over the
acceptance level. Therefore, employers have no incentive to improve their wage



Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)           i
reporting accuracy and the wage reporting system. When SSA does not follow its own
procedures, its credibility is impaired. Specifically, we found SSA:

∙	 Had no management information system to identify employers who continually
   submit wage reports that fail SSA’s acceptance threshold.

∙	 Experienced an 11.4 percent increase in submitted wage reports during TYs 1996
   through 1998, while force processed wage reports increased 1,107 percent during
   the same period.

∙	 Force processed wage reports for the same 285 employers during TYs 1996 through
   1998.

∙	 Force processed wage reports for the same 3,713 employers for TYs 1997 and 1998
   (this number includes the 285 employers mentioned above).

∙	 Had not identified these employers for the IRS to assess monetary penalties of
   $50 per error against the employers for submitting inaccurate name/SSN
   combinations, which would have totaled approximately $8.5 million for the
   285 employers that continued to submit W-2s with incorrect names and SSNs for
   3 consecutive years.

∙	 Encountered employers who circumvented the acceptance threshold by sending
   their wage reports in on paper or by removing the failed W-2s and resubmitting them
   as separate paper reports.

∙	 Did not send educational correspondence (EDCOR) to employers whose wage
   reports had been force processed listing all the problem W-2s or follow-up letters to
   those employers advising them of SSA’s policies or possible penalties for failing to
   submit valid wage reports.

CONCLUSIONS AND RECOMMENDATIONS
Increasing the acceptance threshold to 30 percent and then to 50 percent (with a
5,000 error cap) was intended to improve employer reporting practices. However, SSA
force processes wage reports for the same employers over multiple years, which gives
employers no incentive to improve wage reporting accuracy. Thus, for these
employers, wage reporting accuracy will not improve, and their unmatched wages will
continue to accumulate in the ESF.

To improve its management oversight and overall control environment over force
processing, we recommend that SSA:




Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)         ii
∙	 Develop a management information system to identify employers who have their
   wage reports force processed and identify the number of times their wage reports
   are force processed.

∙	 Ensure ESLOs contact the 285 employers whose wage reports SSA force
   processed during TYs 1996 through 1998 to educate them on wage reporting
   services available through SSA and encourage their participation at seminars and
   workshops.

∙	 Provide information on chronic problem employers to the IRS to impose penalties.
   In the event the IRS fails to impose such penalties, SSA should consider a
   legislative proposal to establish its own sanctioning (penalty) authority.

∙	 Provide employers with EDCOR that lists the problem W-2s and explains why
   accurate names and SSNs are important and possible penalties that may be
   imposed due to incorrect information.

AGENCY RESPONSE
Regarding Recommendation 1, SSA noted that a management information system to
track force processing information is no longer necessary. In TY 2000, SSA changed
the name/SSN threshold to allow 95 percent of an employer’s electronic wage reports to
be in error before SSA rejects the submission. By implementing this policy, SSA
virtually eliminated the need for force processing. SSA is also sending EDCOR to
employers who meet the threshold but have more than 10 name/SSN mismatches. SSA
is establishing an Earnings Data Warehouse that will help evaluate employer reporting
trends, including errors, beginning with TY 1998 data. SSA expects the management
information provided through the new system will help it more readily identify, track, and
work with employers who have a large number of items with name/SSN mismatches
that cannot be posted to a wage earner’s record.

In response to Recommendation 2, SSA noted that, since TY 1996, it has identified
employers with 100 or more items in suspense each TY and has sent this information to
the ESLOs. ESLOs use this information to make contacts and provide reporting
guidelines and services to employers. SSA also stated these listings included the
employers the OIG identified, all of whom have been contacted. SSA also found that
approximately one-third of the employers we identified as failing the threshold for
3 consecutive years met the 50 percent threshold standard in TY 1999, leaving the
remainder to be force processed.

SSA addressed Recommendation 3 by noting the Agency provided a list of
100 employers to the IRS in August 2000. These employers represented those with the
largest number of name/SSN match failures in consecutive years. IRS expressed
interest in the listing but has not assessed penalties. SSA also pointed out that the IRS
is the Federal agency responsible for levying and collecting taxes and has the authority



Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)      iii
and infrastructure to impose penalties, making it a better administrator of any necessary
penalties.

Finally, SSA agreed with Recommendation 4 suggesting that it provide employers with
improved EDCOR. SSA noted that, beginning in TY 2000, it plans to (1) change the
50 percent tolerance rate for accepting Annual Wage Reports with name/SSN errors to
95 percent; (2) strengthen the EDCOR notice to include stronger language about
possible IRS penalties and to request that the employer correct the names/SSNs; and
(3) increase the number of reported SSNs in the EDCOR from 250 to 500. After
TY 2001, SSA plans to provide employers with a list of all name/SSN errors.

OFFICE OF THE INSPECTOR GENERAL RESPONSE
We commend SSA for its plans to improve correspondence with employers who submit
incorrect names/SSNs in their wage reports. The new procedures noted in
Recommendations 1 and 4 should provide employers better information when they
attempt to resolve incorrect wage reports. However, we do not agree with SSA’s new
acceptance threshold and believe that correspondence alone is insufficient to effectively
meet SSA’s goal of reducing the size and growth of the ESF. In addition, SSA’s
responses to Recommendations 2 and 3 outline efforts to monitor chronic problem
employers. Nonetheless, more needs to be done before SSA has an effective means of
holding employers responsible for submitting incorrect wage reports.

We believe SSA’s elimination of the 50 percent threshold and its replacement with a
95 percent threshold, leaves the Agency open to greater reporting errors and more
suspended wages. Unlike earlier TYs, employers can now submit wage reports where
up to 95 percent of the names/SSNs are incorrect and expect nothing more than lengthy
correspondence from SSA in return. Although the employer will get up to 500 name/
SSN errors, the employer has the option of ignoring this correspondence with no follow-
up by SSA. For this reason, we encourage SSA to reconsider eliminating the
50 percent threshold until it has sufficient time to determine the impact this policy
change will have on the ESF.

SSA’s response to Recommendation 2 does not consider that (1) SSA did not have a
management information system in place to identify and monitor these chronic problem
employers; (2) the improvement shown by these employers in TY 1999 may be due to
the wage reports being rejected and resubmitted, a process SSA has decided to end;
and (3) the remaining two-thirds of the chronic problem employers have not met the
50 percent threshold for 4 consecutive years.

SSA’s response also mentions that ESLOs will continue to monitor these chronic
problem employers. Additionally, SSA plans to provide ESLOs a list of employers with
100 or more items in the ESF for TY 1999. Nonetheless, we reported in our audit,
Patterns of Reporting Errors and Irregularities by 100 Employers with the Most
Suspended Wage Items (A-03-98-31009, September 1999), that this ESLO list can be
as large as 7,000 employers. As such, we believe SSA should have its own


Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)      iv
management information system in place to identify such problems as employers who
failed to meet the threshold for 4 consecutive years. Only with such a system in place
can SSA refer a meaningful and manageable list of employers to the ESLOs. SSA may
want to continue using the 50 percent threshold in its Earnings Data Warehouse
evaluations to identify chronic problem employers, even if this threshold is not used for
rejecting incoming wage reports.

Finally, SSA’s response to Recommendation 3 illustrates some progress in assessing
sanctions against chronic problem employers. SSA’s cooperation with the IRS on the
list of 100 employers is a good start. However, SSA has been warning employers about
sanctions for several years without any real action by the IRS. Elevating this language
without IRS follow-through will do nothing to improve the quality of wage reporting or
reduce the ESF’s size and growth. It is for this reason that we continue to encourage
SSA to seek its own sanctioning authority if efforts with the IRS fail to produce results.

SSA also provided technical comments that we considered and incorporated, where
appropriate. SSA’s comments are included in Appendix A.




Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)       v
                                                             Table of Contents

                                                                                                                    Page

INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 4


SSA Management Did Not Monitor Force Processing Data ................................... 4


SSA Force Processed the Same Employers' Wage Reports

Year After Year....................................................................................................... 5


Large Employers Could Bypass Controls and Resubmit on Paper ........................ 6


SSA Did Not Notify Employers In Writing of Force Processing

Procedures ............................................................................................................ 7


CONCLUSIONS AND RECOMMENDATIONS ...................................................... 8


APPENDICES

Appendix A – Agency Comments

Appendix B – OIG Contacts and Staff Acknowledgments




Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)
                                                                  Acronyms

 EDCOR             Educational Correspondence

 ESF               Earnings Suspense File

 ESLO              Employer Services Liaison Officer

 EVS               Enumeration Verification System

 IRS               Internal Revenue Service

 OCO               Office of Central Operations

 SSA               Social Security Administration

 SSN               Social Security Number

 TY                Tax Year

 WBDOC             Wilkes-Barre Data Operations Center





Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)
                                                                   Introduction

OBJECTIVE

The objective of our audit was to review the Social Security Administration's (SSA)
oversight of force processing of magnetic media wage reports with validation problems.

BACKGROUND
Title II of the Social Security Act requires SSA to maintain records of wages employers
pay to individuals. As such, employers report employee earnings to SSA annually on
an Internal Revenue Service (IRS) Form W-2, Wage and Tax Statement. Employers
with 250 or more employees submit annual wage magnetic media (tape, diskette, or
cartridge) instead of a paper document.

For Tax Years (TY) 1995 and prior, SSA accepted magnetic media if as few as
10 percent of the names and Social Security numbers (SSN) matched SSA’s records.
SSA increased the acceptance threshold to 30 percent for TY 1996 and to 50 percent
for TY 1997 (with a maximum of 5,000 errors allowed).1 SSA returns to the employer
for correction and resubmission any annual wage report that does not meet the
threshold.

SSA’s instructions provide an exception to employers who do not meet the acceptance
threshold. To receive the exception, employers must notify SSA that they have
corrected errors to the extent possible but still cannot meet the threshold. SSA will then
force process the report, which suspends a system edit, and notifies the employer it will
do so one time only. SSA decided to permit force processing as a temporary relief
mechanism to help employers adjust to the new wage reporting accuracy standards.
Those W-2s that do not match SSA’s records are accumulated in the Earnings
Suspense File (ESF). Force processing of wage reports results in unmatched W-2s
going directly to the ESF.2




1
  In an August 14, 2000 memorandum from the Office of the Inspector General (OIG) to SSA’s Office of
Program Benefits (subject: Review of Proposed Wage Report Regulations), OIG recommended that SSA
amend applicable regulations (20 CFR § 422.114(c)) to comport with SSA’s policy change of increasing
the acceptance threshold from 10 percent to 50 percent for magnetic media wage reporting.
2
  In our report, Patterns of Reporting Errors and Irregularities by 100 Employers with the Most Suspended
Wage Items (September 29, 1999, A-03-98-31009), we reviewed SSA’s patterns of reporting inaccuracies
in employers' annual wage reports.


Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)                     1
Before SSA force processes a report, it explains to employers the following.

∙	 SSA will ask the IRS in the future to assess monetary penalties against employers
   who continue to submit W-2s with incorrect names and SSNs. The instructions for
   the Form W-2 contain a penalty provision of $50 per error for submitting inaccurate
   name/SSN combinations.

∙	 Magnetic media reports that do not meet the name/SSN tolerance are not to be
   resubmitted on paper. The employer may have a wage report force processed
   1 year only.

∙	 SSA encourages employers to use the Enumeration Verification System (EVS) the
   following TY to validate the SSNs reported. EVS is a voluntary program that offers
   employers a mechanism to match employee names and SSNs with SSA’s records.
   By doing so, employers can ensure employees have provided accurate information.

∙	 Failure to credit earnings to the worker’s earnings record could affect the worker’s
   entitlement to Social Security benefits and the amount of the benefits in the future.

∙ Both SSA and the employer incur additional costs in re-processing reports.

SSA also has Employer Services Liaison Officers (ESLO) nationwide to respond to
questions from employers and third-party filers as well as an Employer Reporting
Service Center with a toll-free number.

SCOPE AND METHODOLOGY
To accomplish our objective, we:

∙	 obtained and reviewed the written procedures at the Office of Central Operations
   (OCO) over force processing of magnetic wage reports;

∙	 reviewed applicable sections of SSA’s Program Operations Manual System,
   Modernized Systems Operations Manual, and other material pertaining to force
   processing of magnetic media reports;

∙ observed the force processing of magnetic media submissions at OCO;

∙	 observed the processing of paper wage reports at the Wilkes-Barre Data Operations
   Center (WBDOC); and

∙	 interviewed personnel at OCO's Division of Employer Services, the WBDOC, and
   the Office of Systems Requirements.



Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)         2
We obtained data extracts of magnetic media wage reports from TYs 1996 through
1998 that were force processed with “4513” or “4551” critical error codes (magnetic
media submissions that fail the name/SSN acceptance threshold and 5,000 cap,
respectively). We compared the employer identification numbers from each of the
3 TYs to determine whether an employer had wage reports force processed more than
1 TY. Our audit did not include a test of information systems to verify the completeness
and accuracy of the force processing data provided by SSA.

We performed our audit at SSA Headquarters and OCO in Baltimore, Maryland; the
WBDOC in Wilkes Barre, Pennsylvania; and our office in Philadelphia, Pennsylvania,
between December 1998 and February 2000. The entity audited was OCO within the
Office of the Deputy Commissioner for Operations. We conducted our audit in
accordance with generally accepted government auditing standards.




Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)     3
                                           Results of Review

SSA’s policy requires employers submitting magnetic media wage reports to meet the
acceptance threshold. SSA informs employers whose wage reports do not meet the
acceptance threshold of possible penalties. However, SSA’s policies and procedures
are not having their intended effect of improving employer reporting practices.
Specifically, our review of SSA’s data shows that SSA:

∙	 Had no management information system to identify employers who continually
   submit wage reports that fail SSA’s acceptance threshold.

∙	 Experienced an 11.4 percent increase in submitted wage reports during TYs 1996
   through 1998, while force processed wage reports increased 1,107 percent during
   the same period.

∙	 Force processed wage reports for the same 285 employers during TYs 1996 through
   1998.

∙	 Force processed wage reports for the same 3,713 employers in TYs 1997 and 1998
   (this number includes the 285 employers mentioned above).

∙	 Had not identified these employers for the IRS to assess monetary penalties of
   $50 per error against the employers for submitting inaccurate name/SSN
   combinations, which would have totaled approximately $8.5 million for the
   285 employers that continued to submit W-2s with incorrect names and SSNs.

∙	 Encountered employers who circumvented the acceptance threshold by sending
   their wage reports in on paper or by removing the failed W-2s and resubmitting them
   as separate paper reports.

∙	 Did not send educational correspondence (EDCOR) to employers whose wage
   reports had been force processed listing all the problem W-2s or follow-up letters to
   those employers advising them of SSA’s policies or possible penalties for failing
   reports.

SSA MANAGEMENT DID NOT MONITOR
FORCE PROCESSING DATA
SSA had no management information system to identify employers who continually
submitted wage reports that failed SSA's acceptance threshold. At the start of the
review, we asked SSA for a data extract of employer wage reports force processed for
TYs 1996 through 1998. Since SSA was not accumulating this information, it was
necessary for SSA to develop software to extract the records force processed from its
employer control data base. During several meetings with SSA personnel, we were


Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)         4
informed these earnings records were not a priority. As a result, SSA did not want to
devote programming resources to such an effort. SSA eventually provided these
records for our review.

Our analysis of the data shows that SSA experienced an 11.4 percent increase in
submitted wage reports between TYs 1996 and 1998, while force processed wage
reports increased 1,107 percent during this same period. When SSA increased the
acceptance threshold from 30 percent (for TY 1996) to 50 percent (for TY 1997), the
number of wage reports force processed increased 891 percent from 635 for TY 1996 to
6,295 for TY 1997. From TYs 1997 to 1998, the number of wage reports force
processed increased 22 percent to 7,664 (see Figure 1). Our analysis of the data
identified trends that we discuss below.

                 Figure 1: Employer Wage Reports Force Processed
                             in TYs 1996 through 1998



                                                  7,664
                                        6,295


                   Wage
                  Reports
                                635


                            1996      1997      1998
                                   Tax Year


SSA FORCE PROCESSED THE SAME EMPLOYERS'
WAGE REPORTS YEAR AFTER YEAR
SSA began informing employers in TY 1996 that it would force process wage reports
that did not meet the acceptance threshold for 1 year only. SSA also told employers it
would ask the IRS to assess penalties against employers who continue to submit W-2s
with incorrect names and SSNs, which could be a charge of $50 each time the
employer furnishes an incorrect name/SSN combination. However, SSA did not track
whether an employer had a wage report force processed from 1 year to the next. As a
result, employers that had wage reports force processed in TY 1996 continued to
submit wage reports in TYs 1997 and 1998 that did not meet the acceptance threshold
and had to be force processed again.

Our analysis found that, despite the “one time only” warning to employers, SSA force
processed wage reports for the same employers year after year. We found that
419 employers who had their wage reports force processed in TY 1996 also had their


Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)       5
wage reports force processed again in TY 1997. Furthermore, 3,713 employers who
had wage reports force processed in TY 1997 had their wage reports force processed
again in TY 1998 (see Figure 2). Our analysis also determined that wage reports for the
same 285 employers were force processed in TYs 1996 through 1998 (this number is
included in both the 419 and 3,713 counts above).

                   Figure 2: Multiple Force Processed Wage Reports
                       for 3,713 Employers Reporting in TY 1998




                                                     285
                                                  Employers   TYs 1997 & 1998
                                                    (8%)      TYs 1996 through 1998

                 3,428
               Employers
                 (92%)




SSA had not taken steps to monitor the force processing data and continued to force
process wage reports regardless of the one time only policy. SSA also had not
identified these employers so the IRS could impose penalties on the wage reports that
were over the acceptance level. For example, in FY 1998, approximately $8.5 million in
penalties could have been assessed against the 285 employers whose wage reports
SSA force processed in TYs 1996 through 1998.3 SSA's lack of follow through with its
own procedures, after warning the employer of consequences, may impair the Agency's
credibility in the future.

LARGE EMPLOYERS COULD BYPASS
CONTROLS AND RESUBMIT ON PAPER
SSA has acknowledged that large employers with validation problems bypassed SSA's
tolerance levels by resubmitting their wage reports in paper form. SSA permits
employers who have less than 250 employees to submit their annual wage reports on
paper to the WBDOC. Meanwhile, SSA will process wage reports filed on paper
regardless of the number of W-2s reported or the name/SSN error level. In this way,
the employer can avoid SSA’s systems edits.




3
 The 285 employers force processed for TYs 1996 through 1998 submitted wage reports with
170,670 incorrect W-2s for TY 1998.


Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)         6
In an October 23, 1997 memorandum to the Deputy Commissioner for Systems, the
Acting Deputy Commissioner for Finance, Assessment and Management stated, “When
earnings reports are returned by SSA to employers/submitters because of name/SSN
tolerance failures, we have learned that some strip-off the failed W-2s and submit them
as separate paper reports. Evidently some are aware that SSA does not return paper
reports regardless of the name/SSN error level.”

SSA tells employers who fail to meet the name/SSN tolerance they are not allowed to
resubmit on paper and will be subject to penalties for noncompliance. However, since
SSA was not tracking magnetic media wage reports rejected for name/SSN validation
errors, it had no way of determining whether, or to what extent, wage reports that failed
were resubmitted on paper.

SSA DID NOT NOTIFY EMPLOYERS IN WRITING
OF FORCE PROCESSING PROCEDURES
SSA did not notify employers with force processed wage reports why the problem
occurred and how it could be corrected. When an employer submits a magnetic media
report containing name and/or SSN failures at a level between 10 and 49 percent, the
submitters receive a letter called EDCOR. This letter lists up to 250 of the problem
W-2s and asks the employer to try to correct the errors. The letter explains why
accurate names and SSNs are important and possible penalties that may be imposed
because of incorrect information. The letter also gives tips on ensuring accurate wage
reporting.

However, SSA did not send EDCOR to employers whose wage reports had been force
processed. Under this practice, for example, an employer who submits a wage report
with 15 percent of the W-2s in error will get a detailed report on the problem W-2s.
Whereas, an employer who submits a wage report that is force processed with
60 percent of the W-2s in error will not receive a detailed report from SSA identifying the
problems that need to be resolved in the future. Hence, SSA's own policy does not
require the Agency to contact the 285 employers noted earlier whose wage reports had
to be force processed 3 years in a row.




Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)          7
                                                          Conclusions and
                                                         Recommendations
SSA's policy of increasing the acceptance threshold to 30 percent and then to
50 percent (with a 5,000 error cap) was intended to improve employer reporting
practices. However, SSA had not established a management information system to
monitor the results of the force processing workload. As a result, SSA force processed
wage reports for the same employers over multiple years. In addition, SSA did not
follow through with the IRS to impose penalties on the employers who submitted wage
reports that were over the acceptance level. Hence, the employers had no incentive to
improve wage reporting accuracy, and their unmatched wages will continue to
accumulate in the ESF.

To improve its management oversight and overall control environment over force
processing, we recommend that SSA:

1. 	 Develop a management information system to identify employers who have their
     wage reports force processed and identify the number of times their wage reports
     are force processed.

2. 	 Ensure ESLOs contact the 285 employers whose wage reports SSA force
     processed during TYs 1996 through 1998 to educate them on wage reporting
     services available through SSA and encourage their participation at seminars and
     workshops.

3. 	 Provide information on chronic problem employers to the IRS to impose penalties.
     In the event the IRS fails to impose such penalties, SSA should consider a
     legislative proposal to establish its own sanctioning (penalty) authority.4

4. 	 Provide employers with EDCOR that lists the problem W-2s and explains why
     accurate names and SSNs are important and possible penalties that may be
     imposed due to incorrect information.

AGENCY RESPONSE
Regarding Recommendation 1, SSA noted that a management information system to
track force processing information is no longer necessary. In TY 2000, SSA changed
the name/SSN threshold to allow 95 percent of an employer’s electronic wage reports to
be in error before SSA rejects the submission. By implementing this policy, SSA
virtually eliminated the need for force processing. SSA is also sending EDCOR to
employers who meet the threshold but have more than 10 name/SSN mismatches.

4
 We previously made this recommendation in our SSA OIG report, SSA’s Earnings Suspense File
Tactical Plan (February 7, 2000, A-03-97-31003).


Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)            8
SSA is establishing an Earnings Data Warehouse that will help evaluate employer
reporting trends, including errors, beginning with TY 1998 data. SSA expects the
management information provided through the new system will help it more readily
identify, track, and work with employers who have a large number of items with
name/SSN mismatches that cannot be posted to a wage earner’s record.

In response to Recommendation 2, SSA noted that, since TY 1996, it has identified
employers with 100 or more items in suspense each TY and has sent this information to
the ESLOs. ESLOs use this information to make contacts and provide reporting
guidelines and services to employers. SSA also stated these listings included the
employers the OIG identified, all of whom have been contacted. SSA also found that
approximately one-third of the employers we identified as failing the threshold for
3 consecutive years met the 50 percent threshold standard in TY 1999, leaving the
remainder to be force processed.

SSA addressed Recommendation 3 by noting the Agency provided a list of
100 employers to the IRS in August 2000. These employers represented those with the
largest number of name/SSN match failures in consecutive years. IRS expressed
interest in the listing but has not assessed penalties. SSA also pointed out that the IRS
is the Federal agency responsible for levying and collecting taxes and has the authority
and infrastructure to impose penalties, making it a better administrator of any necessary
penalties.

Finally, SSA agreed with Recommendation 4 suggesting that it provide employers with
improved EDCOR. SSA noted that, beginning in TY 2000, it plans to (1) change the
50 percent tolerance rate for accepting Annual Wage Reports with name/SSN errors to
95 percent; (2) strengthen the EDCOR notice to include stronger language about
possible IRS penalties and to request that the employer correct the names/SSNs; and
(3) increase the number of reported SSNs in the EDCOR from 250 to 500. After TY
2001, SSA plans to provide employers with a list of all name/SSN errors.

OFFICE OF THE INSPECTOR GENERAL RESPONSE
We commend SSA for its plans to improve correspondence with employers who submit
incorrect names/SSNs in their wage reports. The new procedures noted in
Recommendations 1 and 4 should provide employers better information when they
attempt to resolve incorrect wage reports. However, we do not agree with SSA’s new
acceptance threshold and believe that correspondence alone does not effectively meet
SSA’s goal of reducing the size and growth of the ESF. In addition, SSA’s responses to
Recommendations 2 and 3 outline efforts to monitor chronic problem employers.
Nonetheless, more needs to be done before SSA has an effective means of holding
employers responsible for submitting incorrect wage reports.




Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)      9
We believe SSA’s elimination of the 50 percent threshold and its replacement with a
95 percent threshold leaves the Agency open to greater reporting errors and more
suspended wages. Unlike earlier TYs, employers can now submit wage reports where
up to 95 percent of the names/SSNs are incorrect and expect nothing more than lengthy
correspondence from SSA in return. Although the employer will get up to 500 name/
SSN errors, the employer has the option of ignoring this correspondence with no follow-
up by SSA. For this reason, we encourage SSA to reconsider eliminating the
50 percent threshold until it has sufficient time to determine the impact this policy
change will have on the ESF.

SSA’s response to Recommendation 2 does not consider that (1) SSA did not have a
management information system in place to identify and monitor these chronic problem
employers; (2) the improvement shown by these employers in TY 1999 may be due to
the wage reports being rejected and resubmitted, a process SSA has decided to end;
and (3) the remaining two-thirds of the chronic problem employers have not met the 50
percent threshold for 4 consecutive years.

SSA’s response also mentions that ESLOs will continue to monitor these chronic
problem employers. Additionally, SSA plans to provide ESLOs a list of employers with
100 or more items in the ESF for TY 1999. Nonetheless, we reported in our audit,
Patterns of Reporting Errors and Irregularities by 100 Employers with the Most
Suspended Wage Items (A-03-98-31009, September 1999), that this ESLO list can be
as large as 7,000 employers. As such, we believe SSA should have its own
management information system in place to identify such problems as employers who
fail to meet the threshold for 4 consecutive years. Only with such a system in place can
SSA refer a meaningful and manageable list of employers to the ESLOs. SSA may
want to continue using the 50 percent threshold in its Earnings Data Warehouse
evaluations to identify chronic problem employers, even if this threshold is not used for
rejecting incoming wage reports.

Finally, SSA’s response to Recommendation 3 illustrates some progress in assessing
sanctions against chronic problem employers. SSA’s cooperation with the IRS on the
list of 100 employers is a good start. However, SSA has been warning employers about
sanctions for several years without any real action by the IRS. Elevating this language
without IRS follow-through will do nothing to improve the quality of wage reporting or
reduce the ESF’s size and growth. It is for this reason that we continue to encourage
SSA to seek its own sanctioning authority if efforts with the IRS fail to produce results.

SSA also provided technical comments that we considered and incorporated, where
appropriate. SSA’s comments are included in Appendix A.




Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)      10
                                      Appendices





Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)
                                                                         Appendix A


Agency Comments





Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)
                                                      ~~SEC(., ~
                                                      ~U.~i ~~
                                                  .V'USA
                                                     \     IIIIII1 #
                                                         ~sTV

                                        SOCIAL             SECURITY


MEMORANDUM


Date:      March 22,   2001                                                     Refer To: S 11-3


To:        JamesG. Ruse, Jr.
           Inspector General

From:      William A. Halter Wa';J
           Acting Commissioner of Social Security

Subject:   Office of the Inspector General Draft Review ofForce ProcessingMagnetic Media Wage
           Reports with Validation Problems (A-O3-99-3100l)-INFORMATION

           Our comments on the subject draft review are attached. If your staffhave any questions,they
           may contact Robert Berzanski on extension 52675.

           Attachment:
           SSA Response
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REVIEW OF FORCE
PROCESSING MAGNETIC MEDIA WAGE REPORTS WITH VALIDATION
PROBLEMS (A-03-99-31001)

We appreciate the opportunity to comment on the draft report. Following are our comments on
the recommendations.

OIG Recommendation 1

Develop a management information (MI) system to identify employers who have their wage
reports force processed and identify the number of times the wage reports are force processed.

Comment

A management information system to track force processing information is no longer necessary.
Changes implemented effective with TY2000 are expected to virtually eliminate the need to
force process wage reports.

Changes made for TY2000 included adjusting the validation threshold to accept more reports
when first submitted. This is critical to ensure that we do not adversely affect those wage
earners. Where the name and SSN match. Reports having mismatches in more than 95% of the
wage items are returned to the employer. Past experience shows that reports in that range most
likely have data and record format errors, such as fields presented in the wrong order, rather than
true name and SSN mismatches. Bases on a review of the 1999 wage reports, it was projected
that the change in the error threshold would result in less than 25 employers having their reports
rejected. To date, 6,748 electronic reports have been submitted for TY2000, with only 4 reports
having been rejected, none of which have yet required force processing.

Although the incidents of force processing will be minimal, we recognize that attention must still
be directed to working with employers on improving the accuracy of wage reports. To that end
we are continuing to send out educational correspondence (EDCOR) to employers who meet the
threshold to be processed, but have more than 10 name/SSN mismatches. For TY2000, we have
processed over 184,000 reports (electronic and paper), and have issued over 2700 EDCOR
notices.

In addition, an Earnings Data Warehouse is in the development process which will enable the
evaluation of employer filing trends, including errors, beginning with TY1998 data.
Management information provided through the new system will help us more readily identify,
track, and work with employers having a high rate of items with name/SSN mismatches which
cannot be posted to a wage earner’s record.




Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)               A-2
OIG Recommendation 2

ESLO should contact the 310 employers with wage reports processed during TY1996 through
1998 to educate them on wage reporting services available through SSA and encourage their
participation at seminars and workshops.

Comment

Beginning with TY1996, SSA identified employers with high numbers of items in suspense.
Listings of employers with 100 or more items in suspense for each TY are sent to the employer
services liaison officers (ESLOs). These listings included the 310 employers identified by OIG,
and these employers have been contacted. For TY1999, 101 of the 310 employers were able to
meet the standards, leaving only 209 to be force processing. We continue to work with these
employers to improve wage reporting.

The purpose of identifying these employers is to having the regions contact the employers to
discuss reporting errors which occurred in the previous TY and to provide steps they could take
to improve the accuracy of their future reports; e.g., use of EVS, participation in seminars and
workshops, etc. Regional Referral lists for TY1997 and 1998 were also forwarded weekly from
the start of both process years, with the same purpose. A single end of year Regional Referral list
for TY1999 will be forwarded to the regions after the close of the process. ESLOs use the
employer/submitter information from both lists to make contacts and provide reporting
guidelines and services.

OIG Recommendation 3

Provide information on chronic problem employers to the Internal Revenue Service (IRS) to
impose penalties. In the event the IRS fails to impose such penalties, SSA should consider a
legislative proposal to establish its own sanctioning (penalty) authority.

Comment

We support having appropriate penalties imposed. In August 2000, SSA provided a list of 100
employers to IRS. These employers were identified as those with the largest number of
name/SSN match failures in consecutive years. IRS’ compliance division expressed initial
interest in the list and later confirmed distribution to its local service centers, however to date
SSA has no confirmation of penalty activities. The dialogue with IRS is ongoing.

With regard to the suggestion that SSA seek legislation to obtain authority to impose penalties on
employers, we note that IRS, as the Federal agency responsible for levying and collecting taxes,
has the authority and the infrastructure to impose penalties. We believe that IRS can do so more
effectively than SSA.




Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)                A-3
OIG Recommendation 4

Provide employers with educational correspondence that lists the problem W-2s and explains
why accurate names and Social Security numbers are important and possible penalties that may
be imposed due to incorrect information.

Comment

We agree. As part of an Agency initiative to Accelerate Error Information to Employers,
employers will receive information on all name/SSN combinations that fail validation. For TY
2000 the following changes were made to employer notices:

   •	 The 50 percent tolerance for accepting Annual Wage Reports with name/SSN errors was
      changed to a 95 percent formatting edit.

   •	 The educational correspondence (EDCOR) notice was strengthened to include stronger
      language about possible IRS penalties and to request that the employer make changes to
      incorrect name/SSNs. This revised notice is being sent on all reports with name/SSN
      errors, above the current EDCOR parameters.

   •   The number of SSNs provided in the notice has increased from 250 to 500.

       The EDCOR notice for TY 2001 expands the informational content of the notice and
       includes explanations of why accurate names and SSNs are important and of potential
       IRS penalties.

       SSA is planning on providing all name/SSN error information to employers in TYs
       beyond 2001.

Other Comments:

The report mainly concerns historical forced processing activity since SSA has modified its
approach to Forced Processing. We eliminated the tolerances that were causing most of the
situations resulting in Forced Processing and are moving to specifically advising the employer of
all errors and those corrections should be submitted on Forms W2C. We believe that by
providing more specific information the employer will be able to correct more of the erroneous
Form W2s.

SSA seeks to post valid, error-free wage items to respective wage earners' records. Although
SSA policy normally restricts force processing to correct employer reporting errors to one time
per employer, SSA has force processed reports more than once per employer to reduce the
chance for errors in wage earner records. SSA is vigilant in considering possible ways to reduce
errors in these records.




Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)            A-4
                                                                         Appendix B

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Kimberly A. Byrd, Acting Director, Operational Audit Division, (205) 801-1605

   Walter Bayer, Deputy Director (215) 597-4080

Acknowledgments
In addition to those named above:

   Mary Dougherty, Senior Auditor

   Patrick Kennedy, Computer Assisted Audit Techniques

   Kimberly Beauchamp, Writer/Editor

For additional copies of this report, please contact Office of the Inspectors General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-03-99-31001.




Force Processing of Magnetic Wage Reports with Validation Problems (A-03-99-31001)
                                        DISTRIBUTION                SCHEDULE

                                                                                                        No. of
                                                                                                        CaRies

Commissioner        of Social Security                                                                         1
Management        Analysis      and Audit Program          Support    Staff, OFAM                         10

Inspector     General                                                                                          1
Assistant     Inspector     General     for Investigations                                                     1
Assistant     Inspector     General     for Executive      Operations                                          3
Assistant     Inspector     General     for Audit                                                              1
                                                       I
Deputy Assistant          Inspector     General     for Audit                                                  1
  Director,    Systems       Audit Division

  Director,    Financial     Management           and Performance       Monitoring     Audit Division          1
  Director,    Operational      Audit Division                                                                 1

  Director,    Disability    Program      Audit Division                                                       1

  Djrector,    Program       Benefits    Audit Division                                                        1

  Director,    General      Management        Audit Division

Issue Area Team Leaders                                                                                   25


Income Maintenance            Branch,     Office of Management           and Budget                            1


Chairman,      Committee       on Ways and Means                                                               1
Ranking     Minority    Member,       Committee       on Ways and Means                                        1
Chief of Staff, Committee             on Ways and Means                                                        1
Chairman,      Subcommittee           on Social Security                                                       2
Ranking     Minority    Member,       Subcommittee         on Social Security                                  1
Majority    Staff Director,     Subcommittee          on Social Security                                       2
Minority    Staff Director,     Subcommittee          on Social Security                                       2
Chairman,      Subcommittee           on Human       Resources                                                 1
Ranking     Minority    Member,       Subcommittee         on Human Resources

Chairman,      Committee       on Budget,      House of Representatives

Ranking     Minority    Member,       Committee       on Budget,      House of Representatives

Chairman,      Committee       on Government           Reform and Oversight

Ranking     Minority    Member,       Committee       on Government        Reform and Oversight

Chairman,      Committee       on Governmental           Affairs

Ranking     Minority    Member,       Committee       on Governmental       Affairs

                                                                                                       Page 2

Chairman,      Committee           on Appropriations,      House of Representatives                       1
Ranking Minority Member, Committee                      on Appropriations,
 House of Representatives                                                                                 1
Chairman, Subcommittee     on Labor, Health and Human Services,                          Education
 and Related Agencies, Committee on Appropriations,
  House of Representatives                                                                                1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                                                 1
Chairman,      Committee           on Appropriations,      U.S. Senate                                    1
Ranking      Minority     Member,      Committee        on Appropriations,      U.S. Senate               1
Chairman, Subcommittee                on Labor, Health and Human Services, Education
 and Related Agencies,               Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                                              1
Chairman,      Committee           on Finance                                                             1
Ranking      Minority     Member,      Committee        on Finance                                        1
Chairman,      Subcommittee           on Social Security       and Family Policy                          1
Ranking      Minority     Member,      Subcommittee         on Social Security     and Family Policy      1
Chairman,      Senate      Special Committee            on Aging                                          1

Ranking      Minority     Member,      Senate   Special Committee            on Aging                     1

Vice Chairman, Subcommittee                  on Government         Management       Information
  and Technology                                                                                          1
President,     National     Council     of Social Security      Management        Associations,
  Incorporated                                                                                            1
Treasurer,     National      Council     of Social Security     Management        Associations,
  Incorporated                                                                                            1
Social Security         Advisory     Board                                                                1
AFGE General        Committee                                                                             9
President,     Federal      Managers       Association                                                    1
Regional     Public Affairs Officer                                                                       1


Total                                                                                                    97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensivefinancial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issuesof concern to SSA, Congress,and the
generalpublic. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supportsthe Office of the Inspector General (OIG) by
providing information resourcemanagement;systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensurethat OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagementof SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representativepayees,third
parties, and by SSA employeesin the performance of their duties. Or also conductsjoint
investigations with other Federal, State,and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
